WAUPACA COUNTY CORPORATION COUNSEL
811 Harding Street
Waupaca, WI 54981
Phone: (715) 258-6446 Fax: (715) 258-6493

 

 

Diane L. Meulemans, Corporation Counsel Tiffany R. Wunderlin, Assistant Corporation Counsel

September 8, 2021

Mr. Scott S. Harris

Clerk of the Court

Supreme Court of the United States
Washington, D.C. 20543-0001

Re: K.E.K. v. Waupaca County, Wisconsin, No. 21-5034

Dear Mr. Harris:

Please accept this letter as a request for an extension of 30 days to file
Waupaca County’s response to the petition for certiorari in the above-
captioned case, consistently with Supreme Court Rule 30.4. Waupaca County
originally waived filing a response; however, the Court has ordered a
response to be submitted by September 27, 2021. Counsel recently was
retained by Waupaca County to assist with preparing its response to the
petition. Waupaca County is seeking this extension to ensure that it has
sufficient time to thoroughly prepare the response requested, particularly in
light of the press of other legal work faced by the County. Waupaca County
also understands that the Brief in Opposition must be filed by a member of
the Supreme Court bar. I am currently taking the necessary steps to be
admitted to practice as well.

For these reasons, Waupaca County respectfully requests a 30-day
extension until October 27, 2021, to file its response to the petition for

certiorari.
GY

cc: Colleen Ball, Counsel for Petitioner
